                                                      U.S. Department of Justice
                                                      United States Attorney
                                                      Northern District of Illinois

───────────────────────────────────────────────────────────
Zachary T. Fardon                                     Dirksen Federal Courthouse
United States Attorney                                219 South Dearborn Street, 5th Floor
                                                      Chicago, Illinois 60604
                                                      (312) 353-5300



FOR IMMEDIATE RELEASE                                                                 APRIL 21, 2014



      TEN DEFENDANTS CHARGED IN SEPARATE FEDERAL CASES ALLEGING
       A TOTAL OF MORE THAN $1.27 MILLION IN SOCIAL SECURITY FRAUD



          CHICAGO ― Ten Chicago and area defendants were charged in separate federal

criminal cases with stealing a total of more than $1.27 million from the federal government by

fraudulently obtaining Social Security benefits. Six of the defendants allegedly engaged in the

fraud by using false identities. These individuals either applied for Social Security benefits

under multiple names or worked under one name and applied for benefits using another name,

according to the charges. Other defendants allegedly continued to receive benefits from the

account of a beneficiary who they knew was deceased and no longer entitled to receive

payments. The cases were announced today by Zachary T. Fardon, United States Attorney for

the Northern District of Illinois, and William Cotter, Special Agent-in-Charge of the Chicago

Office of the Social Security Administration Office of Inspector General.

          In the false identity cases, the charges allege that those six defendants obtained Social

Security benefits by claiming they were disabled or otherwise unable to maintain employment

while simultaneously working and earning wages using a different identity.
       SSA administers the payment of benefits from the United States to qualified individuals

under various programs, including the Old-Age and Survivors Insurance (OASI) program, the

disability insurance program, and the supplemental security income program (SSI). The OASI

program provides monthly cash benefits to retired individuals and to the surviving family

members of individuals who had worked and were insured under the Social Security Act based

on contributions from earnings. The SSI program provides monthly cash benefits to aged,

disabled, and blind individuals who have assets and income levels that fall below certain levels.

       The criminal cases were filed this month in U.S. District Court in Chicago. Eight

defendants were indicted by a federal grand jury and two were charged in criminal informations,

each on one felony count of theft of government funds. Seven defendants pleaded not guilty at

their arraignments in U.S. District Court and the remaining three are scheduled to be arraigned

this week.

       “Stealing from the Social Security trust fund hurts the millions of hardworking

Americans who contribute to the Social Security system,” Mr. Fardon said. “We will vigorously

pursue those who abuse the system, so that we can protect those who legitimately need it.”

       Each defendant faces a maximum penalty of 10 years in prison and a $250,000 fine. If

convicted, restitution is mandatory and the Court must impose a reasonable sentence under

federal statutes and the advisory United States Sentencing Guidelines. The public is reminded

that indictments and informations contain only charges and are not evidence of guilt. The

defendants are presumed innocent and are entitled to a fair trial at which the government has the

burden of proving guilt beyond a reasonable doubt.

       The defendant and the total fraud amount alleged in each case follow:


                                                2
DAVID BAILOG, also known as “David Conti” and “David Bailey,” 45, of Chicago
Loss amount: $43,422
(Assistant U.S. Attorney Christopher Parente)

SHARIA BRYANT, a/k/a “Sharia Bailey,” 64, of Chicago
Loss amount: $69,241
(Special Assistant U.S. Attorney Bill Thomas)

IMOGENE DAVIS, a/k/a “Imogene Neely,” 63, of Chicago
Loss amount: $91,566
(AUSA Timothy Storino)

RONNIE DAVIS, a/k/a “Ronnie Wofford,” 67, of Chicago
Loss amount: $101,872
(AUSA Derek Owens)

SHERRI MARSHALL, a/k/a “Sherri Williams,” 49, of Chicago
Loss amount: $43,189
(AUSA Kelly Greening)

PATRICIA McQUEEN, 58, of Chicago
Loss amount: $203,505
(SAUSA Thomas)

BETSY MINOR, 63, of Oak Lawn
Loss amount: $369,188
(SAUSA Thomas)

SIMONIA PATTERSON, 39, of Chicago
Loss amount: $130,929
(SAUSA Thomas)

LEIN SCOTT, a/k/a “Barry Scott,” 64, of Chicago
Loss amount: $126,919
(AUSA Ryan Fayhee)

SHIRLEY SIMMONS, 50, of Chicago
Loss amount: $95,247
(SAUSA Thomas)
                              ####




                                     3
